<html>
<title> - OVERSIGHT OF THE FEDERAL GOVERNMENT'S APPROACH TO LEAD-BASED PAINT AND MOLD REMEDIATION IN PUBLIC AND SUBSIDIZED HOUSING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                 OVERSIGHT OF THE FEDERAL GOVERNMENT'S
                    APPROACH TO LEAD-BASED PAINT AND
                       MOLD REMEDIATION IN PUBLIC
                         AND SUBSIDIZED HOUSING

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-104






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-493 PDF                WASHINGTON : 2018                 
















                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                 Subcommittee on Housing and Insurance

                   SEAN P. DUFFY, Wisconsin, Chairman

DENNIS A. ROSS, Florida, Vice        EMANUEL CLEAVER, Missouri, Ranking 
    Chairman                             Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
STEVAN PEARCE, New Mexico            MICHAEL E. CAPUANO, Massachusetts
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
STEVE STIVERS, Ohio                  STEPHEN F. LYNCH, Massachusetts
RANDY HULTGREN, Illinois             JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DANIEL T. KILDEE, Michigan
LEE M. ZELDIN, New York              JOHN K. DELANEY, Maryland
DAVID A. TROTT, Michigan             RUBEN KIHUEN, Nevada
THOMAS MacARTHUR, New Jersey
TED BUDD, North Carolina























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 26, 2018................................................     1
Appendix:
    June 26, 2018................................................    29

                               WITNESSES
                         Tuesday, June 26, 2018

Benfer, Emily A., Distinguished Visiting Scholar and Senior 
  Fellow, Solomon Center for Health Law and Policy, Yale Law 
  School.........................................................    11
Brewen, Julie, Chief Executive Officer, Housing Catalyst.........    12
Fee, Rachel, Executive Director, New York Housing Conference, 
  Inc............................................................     9
Kirkland, Jeremy, Acting Deputy Inspector General, Office of 
  Inspector General, U.S. Department of Housing and Urban 
  Development....................................................     5
McKeown, Karen, State Health Officer and Administrator, Division 
  of Public Health, Wisconsin Department of Health Services......     6
Patterson, Jeffery K., Chief Executive Officer, Cuyahoga 
  Metropolitan Housing Authority on behalf of Council of Large 
  Public Housing Authorities.....................................     8

                                APPENDIX

Prepared statements:
    Benfer, Emily A..............................................    30
    Brewen, Julie................................................    51
    Fee, Rachel..................................................    57
    Kirkland, Jeremy.............................................    64
    McKeown, Karen...............................................    87
    Patterson, Jeffery K.........................................    96

              Additional Material Submitted for the Record

Duffy, Hon. Sean:
    Written statement from the U.S. Government Accountability 
      Office.....................................................   102
    Report from the U.S. Government Accountability Office........   109

 
                        OVERSIGHT OF THE FEDERAL
                        GOVERNMENT'S APPROACH TO
                       LEAD-BASED PAINT AND MOLD
                         REMEDIATION IN PUBLIC
                         AND SUBSIDIZED HOUSING

                              ----------                              


                         Tuesday, June 26, 2018

                     U.S. House of Representatives,
                                    Subcommittee on Housing
                                             and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Sean Duffy 
[chairman of the subcommittee] presiding.
    Present: Representatives Duffy, Posey, Luetkemeyer, 
Stivers, Hultgren, Rothfus, Trott, Budd, Cleaver, Beatty, 
Kildee, and Gonzalez.
    Chairman Duffy. The Subcommittee on Housing and Insurance 
will come to order.
    Today's hearing is entitled, ``Oversight of the Federal 
Government's Approach to Lead-Based Paint and Mold Remediation 
in Public and Subsidized Housing.''
    Without objection, the Chair is authorized to declare 
recess of the subcommittee at any time. Without objection, all 
Members will have 5 legislative days within which to submit 
extraneous materials to the Chair for inclusion in the record. 
Without objection, Members of the full committee who are not 
Members of the subcommittee may participate in today's hearing 
for the purposes of making an opening statement and asking our 
witnesses questions.
    The Chair now recognizes himself for 5 minutes for an 
opening statement.
    First, I want to thank our panel for participating in 
today's hearing, looking at the impact of lead-based paint and 
mold on the health of our children. Last year, I participated, 
held a hearing in Hayward, Wisconsin on AHASDA, and one of the 
issues we discussed was how mold infestation was impacting the 
health of Native American children that depend on HUD (U.S. 
Department of Housing and Urban Development) for their housing 
needs.
    Before the hearing, I toured a mold-infested house with Ms. 
Moore, who is on the committee also from Wisconsin. I have to 
tell you, it was absolutely outrageous. The fact that we had 
rooms in this small house that were shut down because they are 
full of mold, mold all over window sills, mold going 3 feet up 
a wall and a little baby, little kid's bed is butted up to the 
mold. You went inside the house and you could barely breathe, 
the fact that kids in America live in these kind of houses is 
absolutely outrageous. And Ms. Moore experienced the same.
    We even invited a local doctor that treated these children 
to testify on the respiratory problems that can arise from 
living in unhealthy conditions such as mold-infested homes, 
which, again, you can't breathe in this house. It was so full 
of mold.
    I know that some of you couldn't make it out to the 
hearing, Ms. Moore did, but the issue of mold in our homes 
isn't just a Wisconsin issue alone. Mold impacts those relying 
on public housing in every part of the country including in 
large urban areas like New York City. This has been made very 
clear to us from Ms. Velazquez, who is going to be here later 
at the hearing. And we also have someone here from the New York 
Housing Conference.
    So some of you may wonder why are we looking at lead-based 
paint remediation in addition to mold. Well, if your house was 
built before 1978 it is likely that lead-based paint was used. 
While the use of lead-based paint was banned in 1971, it took a 
few years for the Consumer Product Safety Commission to 
implement new regulations and for remediation programs to be 
started.
    I was recently in Milwaukee and was made aware of how much 
the city is struggling with increases of elevated lead levels 
in the blood of children who live in Milwaukee. There are more 
issues that have come up and the fact that we live in 2018 and 
again have kids that have these elevated levels is absolutely 
unacceptable.
    According to Ms. McKeown's testimony, more than 200,000 
children have been identified with lead poisoning in Wisconsin 
and 90 percent of them were living in homes that were built 
before 1950. She also points out that low-income families are 
impacted more than other families in the community. In fact, 
without objection, I would like to submit for the record the 
2016 Report on Childhood Lead Poisoning in Wisconsin from the 
Wisconsin Department of Health Services.
    While Ms. Velazquez and I have mainly been talking about 
mold in New York City's public housing units, just 2 weeks ago 
the city of New York agreed to spend over $2.2 billion to 
remediate lead-based paint and that the New York City Housing 
Authority has been placed under direct Federal oversight 
because of a potential cover-up. Outrageous.
    In addition to New York City's story, both the HUD 
inspector general and the GAO issued reports on HUD's lead 
grant in rental assistance programs this past month. It seems 
that the timing for this hearing is appropriate, as both 
reports call for increased reporting and oversight of HUD's 
remediation programs. Between the Wisconsin report, the HUD IG 
report, and the GAO (Government Accountability Office) report, 
I think we have plenty of statistics and analysis on the impact 
of lead poisoning in America.
    I want to know from those of you who are here at the table 
on our panel that we are actually working to protect our youth 
from lead poisoning if the process in place is actually 
working. Is it too difficult to navigate? Do you agree with the 
assessment of the HUD IG and the GAO reports? What partnerships 
have you formed that work and what partnerships have fallen 
flat? What is the good, the bad, and the ugly, if you will? Can 
we do more in the private sector as opposed to depending on the 
Federal Government to fix this problem?
    The GAO report notes that in some cases non-Governmental 
funds have been used. Of 20 grantee applications elevated by 
the GAO report, eight indicated that they anticipated some form 
of non-Governmental contributions from non-profit organizations 
and discounts from contractors. How can we use that model to 
help not only remediate but ensure that children are being 
tested?
    It is an important issue. It is impacting families' lives, 
kids' lives, the health of our communities. And so I want to 
thank you for all being here today and sharing your wisdom and 
insight. We appreciate it.
    With that, my time has expired. I now recognize the Ranking 
Member, the gentleman from Missouri, Mr. Cleaver, for 5 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I appreciate you 
placing this issue of lead-based paint on the docket for this 
hearing.
    There is a serious danger in lead-based paint. Years ago, 
as a boy growing up in public housing, I can remember across 
the street, Lester Lacy's house. His little sister would eat 
the paint as it would fall off the wall. Well, it took me a 
while to find out, actually I was an adult, that lead-based 
paint is actually sweet. And a lot of kids are drawn to it 
because it tastes good. Now, they are doing enormous damage to 
themselves and some of it is irreparable damage.
    We had the Nation's first HOPE VI project, so when we built 
HOPE VI we were able to tear down our largest public housing 
complex called Wayne Manor. It was a catastrophe. It was built 
after Pruitt-Igoe and we tore it down. And then we had to bury 
it because of all of the lead-based paint and, in some cases, 
asbestos.
    And we have just looked at this problem for years and we 
have never seriously addressed it. This has nothing to do with 
which Administration has been across political lines and we 
have not dealt with this problem. There are probably thousands 
of people, adults walking around now damaged from eating that 
lead-based paint.
    And the CDC (Centers for Disease Control and Prevention) 
says we have over 4 million kids right now who are living in 
environments where there is lead-based paint and these kids 
have these high levels of micrograms of this lead in their 
bodies.
    And we are not able to tear down all the public housing. I 
wish we could and start all over. It is not going to happen. 
But we can do remediation and some of the remediation at least 
that was started, I am anxious to get your response to this. In 
the early days, they did remediation by simply painting over 
the lead-based paint. And that still creates some discomfort 
here with me and so I am interested in knowing whether that is 
continuing today, and I don't know what kinds of studies we 
have had that say that that is actually a safe way of 
remediation.
    And I think all children deserve to live in safe homes. And 
we have a responsibility as adults and we have a responsibility 
in particular to deal with HUD as they try to deal with this 
problem.
    And at some point, Mr. Chairman, I would love to be a part 
of the process that can declare that under this committee, 
subcommittee we were able to eliminate that problem in the 
United States of America. And I know it is costly and I know 
that a lot of people are going to be concerned about the cost. 
We have no idea what the cost is right now of the lead-based 
paint having been ingested and damaging the adults that are 
walking around.
    And I have to say I am pleased that HUD is working to align 
its definition to lead exposure. And the more we are able to 
deal with this, I think we can get rid of these lifelong 
developmental consequences. And if there are some solutions 
that you have today, I can tell you that this committee is 
ready to receive them.
    Thank you, Mr. Chairman. I will yield back the rest of my 
time. I would rather deal with it in questioning later.
    Chairman Duffy. The gentleman yields back. Well said.
    We now welcome our witnesses to today's hearing. First, I 
want to welcome Mr. Jeffrey Kirkland, the Acting Deputy 
Inspector General for HUD. Next, we have Ms. Karen McKeown, the 
State Health Officer and Administrator of the Division of 
Public Health in the greatest State of Wisconsin Department of 
Health Services.
    Welcome. And now for the introduction of Mr. Patterson, I 
want to recognize the gentlelady from Ohio, Mrs. Beatty, for 
his introduction.
    Mrs. Beatty. Thank you so much, Mr. Chairman and Ranking 
Member, for allowing me to have this honor to welcome to our 
committee today to testify, my good friend Mr. Jeffery K. 
Patterson who is the CEO of the Cuyahoga, which is in Cleveland 
County Metropolitan Housing Authority. Let me just say this. He 
comes to us as no stranger to working his way up from safety to 
development in the ranks of housing, so thank you for being 
here and making our State proud.
    Chairman Duffy. Welcome, Mr. Patterson.
    We now recognize Mrs. Rachel Fee, Executive Director at the 
New York Housing Conference, Incorporated. And next Ms. Emily 
Benfer, the Distinguished Visiting Scholar and Senior Fellow at 
the Solomon Center for Health Law and Policy at Yale Law 
School.
    Welcome. And finally but not least, Ms. Julie Brewen, CEO 
of Housing Catalyst.
    All of you, welcome. Thank you for taking the time and 
being here today.
    In a moment, the witnesses will be recognized for 5 minutes 
to give an oral presentation of their written testimony. 
Without objection, the witnesses' written statements will be 
made part of the record following their oral remarks. Once the 
witnesses have finished presenting their testimony, each Member 
of the subcommittee will have 5 minutes within which to ask you 
all questions.
    I would note that on your table there are three lights. 
Green light, that means go; the yellow light means you have 1 
minute left; and the red light means your time is up. Pretty 
self-explanatory, like stoplights at an intersection, self-
explanatory. Your microphones are sensitive. Please make sure 
they are on and you are speaking directly into the microphone.
    With that, Mr. Kirkland, you are now recognized for 5 
minutes.

                  STATEMENT OF JEREMY KIRKLAND

    Mr. Kirkland. Chairman Duffy, Ranking Member Cleaver, and 
Members of the subcommittee, thank you very much for the 
invitation to be here today to discuss this important topic and 
the critical work of HUD's Inspector General.
    I am Jeremy Kirkland and I am the Acting Deputy Inspector 
General. HUD's mission is to create strong, sustainable, 
inclusive communities and quality affordable homes for all, 
including utilizing housing as a platform for improving quality 
of life.
    HUD has primary responsibility for addressing lead hazards 
in federally assisted housing. Lead toxicity is a preventable 
health problem. And as you can see from the audit report before 
you, the department lacks adequate oversight of the reporting 
and remediation of lead-based paint in public housing and the 
voucher program. This overall inconsistency must be addressed.
    While my testimony will focus on lead-based paint, it is 
important to note that we have also identified lead issues from 
other sources including water and soil. HUD's current 
procedures to address lead exposure are not necessarily 
preventative. The flag that triggers reporting and therefore 
action is a child whose blood test reveals certain indications 
of lead.
    However, even with the levels of lead being detected in the 
blood of these children, we cannot determine the full extent of 
the problem, as the data being shared with HUD is flawed or, in 
some cases, does not exist.
    In 2001, HUD required housing authorities to complete 
inspections to measure lead levels. It wasn't until 2016 that 
HUD established a system to track and follow up with those 
housing authorities that were missing lead inspections. HUD 
indicated that their staff lacked the expertise to review the 
reports issued following these inspections. HUD did not train 
its staff on how to interpret these reports until 2017.
    Of additional concern, HUD does not require housing 
authorities to report and mitigate cases of lead exposure in 
housing built after 1977. Our audit identified instances of 
lead-based paint exposure in post-1978 housing. However, 
current regulations target only pre-1978 properties.
    Negligent, inconsistent, and, at times, nonexistent 
reporting by housing authorities sometimes hiding behind the 
privacy provisions in the Health Insurance Portability and 
Accountability Act combined with the failure of HUD to have 
consistent reporting standards have hindered an ability to 
collect meaningful data. As a result, the data that is provided 
can lack key information, like the child's name and unit number 
and can make verification or follow up difficult if not 
impossible and render it useless.
    This, coupled with the process of self-reporting by housing 
authorities, and little verification by HUD, leaves the 
department without the ability to determine the extent of lead 
in HUD housing and has invariably resulted in exposure.
    An example of stories we have heard is the story of a 
mother who reported to the housing authority peeling and 
chipped paint and a fear of lead in her apartment. She 
requested that the housing authority inspect. The housing 
authority claimed an inspection found no lead paint hazard. It 
was later claimed that a housing authority inspector forged the 
mother's signature on the inspection report. Several months 
later, this mother learned that one of her children registered 
a dangerously high blood lead level.
    In conclusion, our work finds that HUD lacked assurance 
that housing authorities properly identified and mitigated lead 
hazards, thus increasing the potential of exposing children due 
to unsafe living conditions. I know in our many conversations 
with the secretary on this topic he is seeking to address the 
problems highlighted and we will continue to produce products 
assessing their way forward.
    I look forward to working with the department and with 
Congress to ensure safe, decent and sanitary housing and also 
look forward to answering your questions.
    [The prepared statement of Mr. Kirkland can be found on 
page 64 of the Appendix.]
    Chairman Duffy. Thanks, Mr. Kirkland.
    Ms. McKeown, you're recognized for 5 minutes.

                   STATEMENT OF KAREN MCKEOWN

    Ms. McKeown. Chairman Duffy, Ranking Member Cleaver, and 
distinguished subcommittee Members, thank you for the 
opportunity to appear before the House Financial Subcommittee 
on Housing and Insurance to discuss the important role of 
public health in preparing for and responding to the 
consequences of lead poisoning.
    In this testimony, I will be highlighting three points: 
Lead is dangerous, lead poisoning is preventable, and we must 
take action to protect our children. But, first, I want to tell 
you a story about a little girl in Wisconsin.
    This little girl had normal lead levels at her 1- and 2-
year checkups. Her parents then separated when she was 3. Her 
mom lived in a new apartment building and her dad moved into an 
older home. Her dad noticed that when she stayed with him she 
would play at the windows, wiping her hands along the window 
trough and then putting them in her mouth. Remembering what he 
had heard about lead poisoning, he alerted the little girl's 
mom who asked their pediatrician to do another lead test. This 
time her lead level was almost 80 micrograms per deciliter, an 
extremely high level that required her to be hospitalized for 
chelation, a medical treatment that lowers blood lead levels.
    Lead is dangerous. There is no safe level of lead in the 
body. Lead can affect multiple organs and especially the 
nervous system and brain. Young children are the most 
vulnerable with the highest risk period being between 18 and 36 
months. This is largely because at this age, children are just 
beginning to move around and explore their environments and, as 
you know, toddlers put everything into their mouths.
    Children who have been lead-poisoned have lower IQs and 
experience learning disabilities. They may also demonstrate 
behavioral issues such as difficulty controlling their impulses 
that persist into adolescence and adulthood. In other words, 
the consequences of lead poisoning are devastating and 
permanent.
    Lead poisoning is preventable. The most common source of 
lead poisoning in the U.S. is lead-based paints and lead-
contaminated dust. Knowing this, lead hazards can be identified 
and addressed before a child ever becomes lead-poisoned. Yet, 
too often this does not happen, so it is vitally important that 
children be tested according to guidelines to catch elevated 
lead levels as quickly as possible.
    Once a child with lead poisoning is identified, the most 
important action is to remove the source of lead exposure. Yet, 
lead abatement or remediation requires resources which families 
may not have. The most gut-wrenching experience for those who 
work on this issue is finding a lead-poisoned child and then 
realizing there aren't resources to help them remove the 
hazards.
    We must take action to protect our children. Unlike many 
other diseases which can be treated by medical professionals 
alone, lead poisoning also requires prompt action by public 
health, families, property owners, and construction trades to 
reduce hazards from lead-based paint.
    In the case of the little girl I described earlier, four 
local public health departments collaborated across 
jurisdictions to ensure they had searched for possible sources 
of lead in the places where she spent time.
    Since this work cannot be done by any single entity, it 
relies upon a system-based integrated approach. When any part 
of the system breaks down, children can fall through the 
cracks.
    After reading the HUD inspector general's report, I was 
struck by the need for improved data sharing and tracking to 
ensure children do not get lost in the complexity of the 
system's intended to protect them.
    Like so many other health issues, lead poisoning 
disproportionately affects communities that also struggle with 
other challenges such as poverty, unemployment, and housing 
needs. Indeed, this is the heart of the tragedy. We tell 
children that education is their path to a better life and yet, 
as a result of lead poisoning, far too many children find it 
difficult to achieve their dreams of a brighter future.
    In conclusion, I want to reiterate that lead is dangerous 
with life-long consequences for young children. Lead poisoning 
is preventable, but preventing it will require resources as 
well as systems that facilitate collaboration.
    Remember the little girl in Wisconsin? One year and three 
chelation treatments later she is still struggling with high 
lead levels. The family has been traumatized by this 
experience. The parents are desperate for their daughter to be 
OK and their lives to return to normal.
    It is too late to prevent lead poisoning for this little 
girl, but we can take steps to prevent it for thousands of 
other children this year and every year. Indeed, we must take 
action. The children are depending on us.
    Thank you for your interest and concern. I am happy to 
answer any questions you may have.
    [The prepared statement of Ms. McKeown can be found on page 
87 of the Appendix.]
    Chairman Duffy. Thanks, Ms. McKeown.
    Mr. Patterson, you are recognized for 5 minutes.

                 STATEMENT OF JEFFERY PATTERSON

    Mr. Patterson. Chairman Duffy, Ranking Member Cleaver, and 
Members of the subcommittee, my name is Jeffery Patterson. I am 
Chief Executive Officer of the Cuyahoga Metropolitan Housing 
Authority in Cleveland, Ohio and Vice President of the Council 
of Large Public Housing Authorities (CLPHA), which is a 
national non-profit membership organization that works to 
strengthen neighborhoods and improve lives.
    Providing a safe, accessible, and healthy environment is 
critical to helping our families, seniors, and persons with a 
disability and other vulnerable populations live with dignity 
and respect. Today, my testimony will focus on several areas 
that Congress could focus on to help correct the conditions and 
risks posed by environmental health hazards.
    The Capital Fund Program is the funding that most housing 
authorities rely on to address conditions of health hazard 
abatement. The Capital Fund appropriations have steeply 
declined. The capital needs backlog has grown. It was estimated 
at $26 billion by HUD 8 years ago and now is estimated at $50 
billion by industry stakeholders and continues to grow.
    This chronic underfunding of the Capital Fund contributes 
to the deteriorating housing stock, greatly diminished health 
and other life outcomes for public housing residents. Congress 
provided the Capital Fund with its largest boost in any one 
Fiscal Year last year, $800 million. While this represents a 
significant amount and was gratefully received by housing 
authorities, this is not nearly enough to cover the needs of 
the community.
    At our housing authority, some of our properties date back 
to the 1930's with approximately 3,000 units that contain lead-
based paint. While we maintain the paint conditions in these 
units through a process of inspections and repair, these 
measures are temporary and deteriorate with normal activities 
of life leading to endless cycles of inspection and repair. The 
cost to completely remove lead-based paint from housing thereby 
eradicating exposure of infants and children to these toxins 
exceed the annual Capital Fund allocation of our PHA (public 
housing authority) many times.
    In your invitation to testify, you asked me to speak or 
comment on the HUD Office of Inspector General report. While I 
cannot speak specifically to what HUD did or did not do, I can 
say that housing authorities are endeavoring under often 
difficult circumstances and very limited resources to meet the 
many obligations, responsibilities, and conditions that are 
required when it comes to mitigating lead-based paint hazards 
in their developments.
    Things such as the Rental Demonstration Program, which 
offers the housing authorities the ability to leverage private 
capital through a variety of tools, allow us to be able to try 
to do things to remediate those issues. The Moving to Work 
program is another example of a program that allows flexibility 
for housing authorities and others to be able to take the 
necessary steps to address those concerns.
    HUD's Healthy Homes program is a cost-effective and widely 
popular initiative that housing authorities are encouraged to 
work together with a diverse array of community health 
stakeholders and residents to reduce environmental hazards and 
improve community health.
    The ability to work collectively and in a collaborative 
manner with agencies across inter-Governmental alliance is 
critical in being able to address this matter. CLPHA is pleased 
that the 2019 committee report by the Senate Appropriations 
Committee is recommending HUD award $95 million in grants to 
remediate lead-based paint hazards. The $95 million is another 
set-aside under the Housing Choice Voucher program. We would 
strongly encourage funding be authorized and allocated as new 
moneys rather than placing an additional strain on the Housing 
Choice Voucher program already beset with competing needs.
    In closing, with progress there are always new ways to do 
things: New programs, improved methods, better data, better 
materials. As my testimony shows, there are programs that 
exist, there is expertise that can exist. What housing 
authorities and other housing providers lack is resources.
    Mr. Chairman, Members of the committee, we appreciate the 
increased attention that all of you have brought to this 
matter. And we appreciate the fact that you have elevated this 
discussion to a point where folks could really focus on it, 
collaborate and do any things that need to be done to help the 
youth and those that are exposed to lead. So I thank you for 
your time. Thank you for allowing me to testify today and I am 
prepared to address any questions. Thank you.
    [The prepared statement of Mr. Patterson can be found on 
page 96 of the Appendix.]
    Chairman Duffy. Thank you, Mr. Patterson.
    Ms. Fee, you are recognized for 5 minutes.

                     STATEMENT OF RACHEL FEE

    Ms. Fee. Thank you. Good morning. I am Rachel Fee, the 
Executive Director of the New York Housing Conference, a 
nonprofit affordable housing policy and advocacy organization. 
Our mission is to advance city, State, and Federal policies to 
support the development and preservation of decent and 
affordable housing for all New Yorkers.
    I would like to thank Committee Chairman Duffy, Ranking 
Member Cleaver, and Members of the Financial Services 
Subcommittee for holding this important hearing today and the 
opportunity to testify.
    The built environment in which we live profoundly impacts 
our physical health and wellbeing. Numerous studies have 
demonstrated the positive impact of affordable housing on 
health outcomes and health savings. On the other end of the 
spectrum, poor housing quality can have serious, detrimental, 
and costly consequences.
    In New York City, 400,000 residents call public housing 
home in 176,000 buildings managed by the New York City Housing 
Authority (NYCHA). The future of this housing has enormous 
implications not only for its residents, but for the 
surrounding neighborhoods and the city as a whole.
    Currently, there are over 160,000 work orders outstanding, 
representing deficiencies in residents' homes. When 
deficiencies relate to leaks, pests, peeling paint, and mold, 
tenants' health is potentially at risk. Behind these work 
orders are at least $25 billion of outstanding capital repairs 
in NYCHA developments. These are desperately needed building 
upgrades for systems that have outrun their useful life decades 
ago.
    Since 2001, NYCHA's Federal capital and operating funding 
have been reduced by $1.5 billion. New York's capital needs 
make up about half of the national capital repair backlog, 
estimated by industry experts at $50 billion.
    Despite a 2013 class action lawsuit relating to pervasive 
mold and despite the U.S. Attorney and the Southern District's 
investigation into lead-based paint noncompliance and other 
health and safety issues, we still have nearly 200,000 families 
on the waiting list for public housing, underscoring its value.
    Our Nation knows the devastation of a public health crisis 
as witnessed by Flint, Michigan's contaminated water supply. 
Without investment, public housing could be the Nation's next 
massive health crisis. There is both a humanitarian and a 
monetary cost associated with the health impacts of aging 
infrastructure which include asthma, respiratory illness, and 
elevated lead levels.
    The total annual cost of asthma to the U.S. economy is 
almost $82 billion. A 2017 study found that eradicating lead 
paint hazards from older homes of children from low-income 
families would provide $3.5 billion in future benefits at a 
cost of $2.5 billion. But there is no price tag for an impacted 
child who can never reach his full potential.
    Representative Velazquez has called for Congress to 
commission a study on the health impacts of deteriorating 
building conditions for public housing residents. We concur 
with this recommendation.
    We also agree with the recommendations from the Office of 
the Inspector General report dated this month to improve HUD's 
oversight related to lead reporting, monitoring, and abatement. 
In addition, we support the expansion of HUD's lead-based paint 
hazard control and the lead hazard reduction grant programs 
including eligibility for all public housing authorities to 
apply.
    While these are important programs, they only abate for 
lead and do not address underlying building repair issues. 
While the health hazards resulting from poor quality housing 
are serious and costly, the solutions are simple. Targeted 
capital investment is the key to preserving decent, safe, and 
healthy living conditions. This can be achieved through 
targeted public housing capital and the Rental Assistance 
Demonstration program, which Congress recently expanded.
    Our Nation is already paying the price for substandard 
public housing conditions in our healthcare spending. Let us 
invest Federal dollars the right way, by restoring safe and 
healthy housing conditions and dignity to its residents to 
preserve our public housing infrastructure.
    Our three recommendations are as follows. Increase public 
housing capital to $5 billion annually with at least $300 
million targeted toward health hazards; commission a study on 
the health impacts of deteriorating building conditions and the 
impact on public housing residents; and include public housing 
preservation in a national infrastructure plan.
    Thank you for your time today.
    [The prepared statement of Ms. Fee can be found on page 57 
of the Appendix.]
    Chairman Duffy. Thank you, Ms. Fee.
    Ms. Benfer, you are recognized for 5 minutes.

                    STATEMENT OF EMILY BENFER

    Ms. Benfer. Chairman Duffy, Ranking Member Cleaver, and 
Members of the subcommittee, thank you for the opportunity to 
testify on the critical issue of lead-based paint and mold in 
public and subsidized housing.
    I am Emily Benfer, Distinguished Visiting Scholar and 
Senior Fellow at Yale Law School. It is an honor to testify 
before you today on this urgent health and safety threat for 
our children.
    For the 1.6 million households that reside in federally 
assisted housing, lead hazards and mold can result in permanent 
and severe health impairments. Lead poisoning causes 
irreversible brain damage and affects bodily functions, growth, 
cognition, behavior, and development.
    The financial consequences of lead poisoning include 
upwards of $280 billion in public spending on healthcare cost 
and special education alone. According to HUD, a significant 
number of children currently reside in public and subsidized 
housing that contain lead-based paint. At the same time, 70 
percent of Superfund sites are within a mile of public housing 
were HUD multi-family housing exposing residents to lead-soil, 
arsenic among other toxins.
    Similarly, housing program residents across the country 
suffer the adverse consequences of mold. A study of the 2011 
U.S. Census found that public housing units are 4 times as 
likely to have roach infestations and 3 times as likely to have 
leaks than private market housing.
    These substandard housing conditions often create common 
asthma triggers. For children, asthma is the leading cause of 
school absences, accounting for 10.5 million lost school days 
and, in some cities, school absences are the basis for 
termination from public housing. Children cannot escape these 
hazards without greater Federal interventions.
    The recent OIG and GAO reports on lead-based paint in 
public and subsidized housing determined that HUD lacks both 
performance measures and plans to address non-compliance 
withdrawals as well as oversight of lead-based paint reporting 
and remediation in its programs.
    Based on existing regulatory authority, HUD could do much 
more to protect children from lead poisoning and mold. First, 
HUD should implement primary prevention strategies that would 
prevent exposure and thus prevent lead poisoning and asthma.
    As noted in the GAO report and the House report to the 2017 
Consolidated Appropriations Act, HUD's current practice of 
visual assessments for lead is insufficient and more rigorous 
standards should be implemented to ensure that lead hazards are 
identified before children are lead-poisoned.
    In 2017, a bipartisan group of Senators including Senators 
Scott, Durbin, Young, Portman, and Donnelly introduced the 
Lead-Safe Housing for Kids Act. Based on legislation introduced 
in the 114th Congress by Representatives Ellison, Quigley and 
Kildee, the bill directs HUD to conduct lead risk hazard 
assessments prior to occupancy in all housing programs. Until 
HUD engages in this strategy, children will continue to 
function as sensing devices for lead hazards and will continue 
to have their lives permanently altered for the worse.
    Second, HUD should engage in oversight compliance and long-
term planning necessary to ensure the health and safety of 
residents especially children. The OIG and GAO reports found 
that public housing authorities self-certify compliance, 
leaving wide margins for fraudulent reporting.
    HUD has no procedure for addressing non-compliance other 
than offering technical support to faltering PHAs. This has 
resulted in exposure to mold and the continued lead poisoning 
of children in numerous districts across the country.
    Third, funding should be dedicated to improving the 
conditions of federally assisted housing to prevent exposure to 
health hazards. Due to a backlog of public housing capital 
needs estimated as high as $50 billion, PHAs do not have 
sufficient funding for the operation or maintenance of public 
housing.
    Greater funding would allow PHAs to fully address the root 
causes of mold and remediate lead hazards. At the same time, 
despite the proven effectiveness of HUD's community development 
block grant, home lead-based paint hazard control, and lead 
hazard reduction demonstration grant the programs remain 
underfunded and not accessible to the most at-risk communities.
    Ultimately, to end lead poisoning as a major public health 
threat, HUD would need to increase the budget for lead hazard 
remediation and abatement. Lead hazards and mold pose a great 
threat to the health and livelihood of residents especially 
children. To uphold its duty to provide safe, decent, and 
sanitary housing, HUD must eradicate this completely 
preventable health-harming condition in federally assisted 
housing. Any other approach places children's lives at grave 
risk.
    Thank you for the invitation to testify on this important 
issue and I look forward to your questions.
    [The prepared statement of Ms. Benfer can be found on page 
30 of the Appendix.]
    Chairman Duffy. Thank you.
    Ms. Brewen, you are recognized for 5 minutes.

                    STATEMENT OF JULIE BREWEN

    Ms. Brewen. Good morning Subcommittee Chairman Duffy, 
Ranking Member Cleaver, and honorable subcommittee Members. My 
name is Julie Brewen and I am the CEO of Housing Catalyst, the 
housing authority of the city of Fort Collins, Colorado. We own 
and operate about 1,200 units of affordable housing and 
administer about 1,200 Housing Choice Vouchers and a number of 
other successful properties and programs. Housing Catalyst is 
committed to creating vibrant, healthy, sustainable properties. 
I am also a board member for the National Association of 
Housing and Redevelopment Officials, NAHRO.
    Housing Catalyst, along with other public housing 
authorities across the country, remains steadfast in ensuring 
that children in HUD-assisted housing are not exposed to lead-
based hazards. In fact, PHAs have been more than successful 
over the years in minimizing and eradicating lead-based hazards 
from their properties.
    A joint report by HUD and the CDC found that children 
living in federally supported housing have approximately 20 
percent lower blood lead levels on average than similar 
children in low-income families living in homes where there is 
no Federal assistance. Although this demonstrates considerable 
progress, PHAs continue to work tirelessly to ensure that their 
properties remain free of lead-based hazards.
    One of the most important factors in ensuring that PHAs are 
able to provide safe, secure, lead- and mold-free public 
housing for their residents is full funding of the Public 
Housing Operating Fund and the Public Housing Capital Fund.
    The public housing inventory faces a mounting capital needs 
backlog, but Capital Fund appropriations continue to lag 
dangerously behind accruing modernization needs. In 2018, HUD 
provided enough subsidy for only 80 percent of the capital 
needs estimated to accrue during the Fiscal Year according to 
HUD's 2010 Capital Needs Assessment. At the same time, funding 
for operations has endured deep cuts, forcing PHAs to forego 
critical maintenance functions and further jeopardizing the 
long-term sustainability of many properties.
    In 2011, a full capital needs assessment of Housing 
Catalyst's public housing portfolio confirmed what we knew 
anecdotally. The capital needs and expenses of operating 
scattered site public housing far outweighed the average 
$204,000 per year in capital funds Housing Catalyst was 
receiving.
    With respect to lead, in the 1990's, we had to encapsulate 
some homes with exterior lead present, and the encapsulation 
has a life span of just 20 years. Today it would cost $50,000 
to address the needs of just one of these houses or roughly a 
quarter of our annual average capital fund subsidy on just one 
of our 154 units.
    In light of these financial limitations, Housing Catalyst 
was accepted to participate in HUD's rental assistance 
demonstration program which allowed the agency to acquire and 
construct properties that meet our high standards for health 
and safety.
    I believe that for many housing providers like us, RAD 
(Rental Assistance Demonstration), and the newly updated 
Section 18 Demolition and Disposition Regulations provide a 
mechanism to help ensure healthy homes for communities' most 
vulnerable families. It is critical that Congress and HUD take 
a commonsense approach toward lead and mold abatement. Mandated 
full abatement of lead in public housing properties without 
adequate funding is impossible.
    Since 2001, Housing Catalyst has experienced just over 
$1,660,000 of cuts, which is significant for the size of our 
public housing portfolio. Had RAD not been an option for us, we 
would have had to make very difficult choices. There are many 
housing authorities across the country like Housing Catalyst 
who are committed to working in proactive ways to focus on the 
health of the families we serve. We have adopted a 
comprehensive Green Operations and Maintenance Manual, which 
includes using only low VOC paints and nontoxic cleaning 
products.
    And as a developer, when we build and design new properties 
or acquire and substantially rehabilitate existing properties, 
we focus on healthy building practices that include 
construction design, materials, and systems for healthy indoor 
air quality among other health and sustainability focuses.
    I truly appreciate your interest and concern and I 
encourage you to continue to address this issue with a 
commonsense approach. Thank you.
    [The prepared statement of Ms. Brewen can be found on page 
51 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Brewen. I want to thank the 
panel for their testimony. The Chair now recognizes himself for 
5 minutes for questions.
    I am looking at how much money we have spent since 2009. My 
analysis is we have spent about $1.2 billion dollars on this 
issue. Mr. Kirkland, does that number sound about right to you?
    Mr. Kirkland. It sounds close, obviously, give or take a 
little bit, but I think that is pretty accurate.
    Chairman Duffy. And is it the assessment of the panel that 
that is not enough money? It seems like it would do a hundred--
we did $145 million this year in regard to lead paint 
mitigation. It is--that is not--that is not--that is not doing 
it? And we have been doing that for, what? Fifteen, 20 years, 
is that fair, Mr. Kirkland?
    Mr. Kirkland. That is fair.
    Chairman Duffy. And so, again, over 10 years, it has been 
$1.2 billion. Are we making a dent in the public stock? Are we 
making--are we making a headway? Are we seeing the number of 
poisoned children in America going down because of the money we 
are spending, is it leveling off, is it going up? What are we 
seeing with kids and in--that live in the public, in public 
housing? Anybody?
    Ms. McKeown. I can't speak to public housing specifically, 
but when we look at the trends in Wisconsin, we are seeing the 
number of children who are lead poisoned going down; it is 
still too many children, over 4,000 a year is still too many. 
And as I listened to the other panelists, what is not clear to 
me, is have the steps that have been taken, are those going to 
last, are those going to have to be repeated over and over?
    Chairman Duffy. Great question.
    Ms. McKeown. Which means the same money would have to be 
spent?
    Chairman Duffy. Are we resolving the problem for the long 
term or is this a short-term solution, Ms. Fee?
    Ms. Fee. So, in New York City, we have in NYCHA's Public 
Housing about 9,000 children that are living in apartments with 
evidence of lead-based paint. So, that is--
    Chairman Duffy. Give me--give me that number again?
    Ms. Fee. Nine thousand according to the New York City 
Housing Authority. And that number could be higher, that is 
just what they have reported. The attorney--the U.S. Attorney 
from the Southern District thinks that that number could be 
substantially higher.
    So, in terms of what we are investing in abatement, I think 
there are a couple issues here. The first is, if you can abate, 
encapsulate, or remove the lead paint, you can make that a safe 
and habitable living environment. But if you have other issues 
going on in a building, like we do in much of New York City's 
Public Housing Authority, if you have leaking roofs, if you 
have leaking pipes, if you have water penetration because your 
building envelope is not sealed, you have moisture coming in 
through the brick that needs to be repainted. Without fully 
upgrading these building systems, that paint is going to peel 
again.
    If we are looking at mold, you can replaster, you can 
paint, but we are going to see that mold return. Right now, I 
think the return rate is about 30 percent, so we are spending 
money abating for molds, and in 30 percent of the cases it is 
growing back, because we are not investing the dollars to deal 
with the underlying building issues.
    Chairman Duffy. So, is that advice that you would give us, 
just try to deal with the underlying problem, so it is not a 
reoccurring theme?
    Ms. Fee. Absolutely, I think that we need to invest 
significant amounts of money in the Public Housing Capital Fund 
to upgrade building systems, and target it toward where it is 
really needed the most kept--pressing capital needs that are 
impacting the health of the residents. So we are looking at 
roofs, plumbing, sealing the building envelopes.
    Chairman Duffy. Ms. Brewen, did you want to comment on 
this? No?
    Ms. Brewen. Yes, thank you. For us, our only viable option 
was the RAD program, which allows us to sell these 154 public 
housing properties and replace them with newer substantially 
renovated properties. The families that we serve that are very 
vulnerable have few choices to public housing, and for us 
because of the backlog of capital needs, weighing roofs versus 
lead. It just wasn't an option, we really chose to replace our 
units for our most vulnerable families.
    Chairman Duffy. And this is the burning question for us, 
how do--how do we--how do we spend money and spend money well? 
And how much do we have to spend? Mr. Kirkland?
    Mr. Kirkland. Chairman Duffy, I think one of the concerns 
that obviously came out of our report is a lack of consistency 
in approach. And as we talked about the abatement and 
mitigation issue, HUD relies on each housing authority to 
address that issue on its own.
    I think as you look at many of the policies of HUD, 24 of 
the 45 field offices that have oversight of the mitigation 
process where it comes to lead, don't even have policies on how 
to deal with the intake and the processing of those issues. So, 
a consistent approach I think is necessary first and foremost. 
And I think that was a glaring aspect of our report.
    Chairman Duffy. And I wish I had more time, my time is--I 
wanted to go to Ms. McKeown, I can't, but I think the scenario 
that you brought up with the--with the kids was not a public 
housing unit, it was a private unit, is that right? And how do 
we now address not just the public housing facilities, but how 
to deal with private rentals as well, which is a whole other 
set of problems. But my time has expired and now I recognize 
the Ranking Member, the gentleman from Missouri, Mr. Cleaver 
for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I am going to follow 
up with the Chairman's express concerns, because Mr. Kirkland, 
you are probably the natural person to raise this question, 
with whom I can raise this question. We have 2.75 in the Public 
Housing Capital Fund or close to that, something like that. And 
now the President zeroed it out in his budget, but we were able 
to get some significant dollars, the problem that I am--I don't 
understand, if we are interested in solving this problem, we 
ought to do something that would demonstrate that we are 
interested.
    For example, if we have four million kids living in places 
where they are exposed to high levels of lead and a significant 
number of the 4 million are living in public housing, why can't 
we declare war on lead paint and put the resources and we may, 
I don't know how far these capital--Public Housing Capital 
Funds can go, are these funds eligible to deal with 
remediation?
    Mr. Kirkland. We can certainly look into that, I don't have 
an immediate answer for you, but I would certainly have my 
staff. But, yes, I did get word that, yes, we can use those 
funds.
    Mr. Cleaver. Can anybody tell me why we can't just say, OK, 
2019, we are going to reduce the number of units with lead-
based paint in it by 75 percent, and solve this problem? 
Because if we go like we have been going, my grandchildren will 
be still dealing with this issue. I know--is this weird? Am I 
being weird?
    Ms. Benfer. Ranking Member Cleaver, I am with you, let us 
100 percent declare war on lead poisoning, I think that we know 
how to solve this problem, we have known for years, the science 
is behind us, and it is a matter of really holding HUD 
accountable for oversight, for quality assurance, for no more 
self-reporting of whether or not we have complied with this. 
And first and foremost, primary prevention practices. We have 
to identify the hazards and remediate them before children are 
exposed.
    Otherwise, this will be a problem for our grandchildren and 
their grandchildren, because they will be dealing with the 
consequences of the cost to society. There are 450,000 units, 
federally assisted housing units that have lead-based paint, 
and were built before 1978, that is the universe that we are 
dealing with here.
    Mr. Cleaver. Now, do we include Section 8 Housing as well? 
Does any--does anyone disagree with me, if so, don't raise your 
hand--
    Ms. Fee. Wait. I concur, I think that we need to fight lead 
paint, I think in terms of public housing, we have laid out a 
plan to restore conditions in public housing, it is $5 billion 
a year, you would want to look at that over 10 years, and 
reduce that capital backlog. We have to keep funding operating 
so that the buildings can be maintained, but we first have to 
address underlying building systems.
    Mr. Cleaver. Mr. Patterson?
    Mr. Patterson. Yes, Ranking Member Cleaver, I agree with 
what you have been saying, I do think that it takes a lot, it 
will take funding, it will also take I think a collaborative 
effort across the board with different agencies working to 
support each other as well as share information where they are 
able to ascertain and understand where the problems are and 
then make sure that we can get that approach.
    But it will be a war, it will be--have to make a sustained 
effort over time to be able to address this. But I do believe 
with that collaboration, and with that emphasis and that 
funding we will be able to address it. It is the same thing in 
terms of using programs like the RAD program, the Moving to 
Work Program where there is flexibility to be able to address 
it, but it does need to be an overall strategy coordinated 
across the board in order to be able to get this matter 
addressed.
    Mr. Cleaver. And so we need multiple agencies to sit down 
and work together, probably HUD, maybe even EPA, but certainly 
HUD, and maybe HHS, I don't--I don't know, all I know is that I 
am talking to myself in some of this, maybe the American public 
would love to see us solve a problem after discussing it, or 
are we going to discuss it for another couple of decades? I 
just think this is an opportunity we ought to exploit and do 
something so that we can do this, and I don't--I am--I am going 
to put some time on it, because I am frustrated that we might 
be talking about this next year.
    I have gone over, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentlelady from Ohio, Mrs. 
Beatty, for 5 minutes.
    Mrs. Beatty. Thank you, Mr. Chairman, and thank you, 
Ranking Member, and thank you to our witnesses. Please excuse 
my dark glasses. I had eye surgery. So, the light bothers it.
    But, Mr. Chairman, I would like to go on record so these 
witnesses, when they go back to their individual States that 
they can say at least one Member here today said how honored I 
was to see witnesses from both sides of the aisle giving such 
scholarly testimony and also having the issue at heart more 
than playing to us on either side of the aisle, and it has been 
greatly appreciated regardless if you are the Democrat or 
Republican witness.
    I found it to be very informative. I found it to be very 
factual and hopeful to me, because one of the things, I grew up 
working in public housing and it was one of my first jobs after 
graduating from college and I had the distinct honor of going 
in and inspecting units. So, I saw many children who were 
affected by or actually gnawing on window ledges with lead-
based paint.
    I am disturbed; my staff has presented me a chart and I may 
want to enter it into the record in the State of Ohio. So, Mr. 
Patterson, I will go to you with this question. It talks about 
the number of young children under 72 months old and when you 
look at the statistics that they have there, some 1,500 kids 
less than 72 months of age who were tested and confirmed to 
have high blood levels for exposure to lead. Now, all of these 
are not in Cleveland. My city, the capital, Columbus, shares in 
that. What is disturbing is most of--well, the majority are in 
minority or predominantly minority communities, communities 
with public housing that are housed with predominantly African-
Americans and other minorities.
    Can you or do you know what it would cost for you to 
completely mitigate the threat of lead-based paint exposure to 
children in your facilities?
    Mr. Patterson. I don't have a number that I can 
specifically say, but I could tell you it would be a very, very 
large number. We have over 3,000 units now just within our 
housing authority that are affected by lead paint. That is out 
of our housing stock of plus-9,000.
    So, over the years, we have been able to go in through 
development activities and things like that to be able to 
address some. But those units that are there are still a 
problem. It boils down to trying to eradicate the problem or 
trying to just deal with the problem on a short-term basis.
    Mrs. Beatty. OK.
    Mr. Patterson. To really eradicate the problem, that means 
going in and doing a full removal, in some instances, 
redevelopment of a site in order to provide these individuals 
with the safe quality housing that they deserve.
    Mrs. Beatty. OK. And that is a good segue for me. As we 
certainly know, Secretary Carson, a physician, when he was 
sworn in to become the Secretary of the Department of Housing 
and Urban Development, he said he was going to renew HUD's 
focus on lead hazards in affordable housing.
    Well, today, we heard from each one of you that the Public 
Housing Capital Fund is certainly a key funding mechanism for 
public housing authorities to do just that, to eradicate the 
lead-based paint. However, the Administration's fiscal 2019 
budget request from HUD zeroed out the Public Housing Capital 
Fund.
    So, I would like to ask for the record each of you to 
answer the final question with a yes or no. Will zeroing out 
the funding for the Public Housing Capital Fund assist HUD and 
public housing authorities around the country to eradicate 
lead-based paint exposure within affordable housing? And we 
will start right here.
    Ms. Brewen. No, Congresswoman.
    Ms. Benfer. No.
    Ms. Fee. Absolutely not.
    Mr. Patterson. No. It will not.
    Mr. McKeown. I am not familiar with the different funds. 
So, I am not able to speak to that. Sorry.
    Mrs. Beatty. So, well, let me put it this way. If you do 
not have any money to do it and you just said you need it, will 
it help if you do not have the money?
    Mr. McKeown. If other funding is not supplied, then yes or 
then it would be a problem.
    Mr. Kirkland. This issue will obviously take funding to be 
able to address the issue.
    Mrs. Beatty. OK. Thank you.
    And my time is up. I yield back.
    Chairman Duffy. The gentlelady yields back.
    Without objection, we are going to do a second round. And 
so, the Chair recognizes himself for 5 minutes.
    We spent over $1 billion in the last 10 years. Over the 
last 20 years, I am sure we are kicking a couple of billion 
dollars. We have a set of units or homes or apartments that are 
a problem.
    Mr. Kirkland, with a couple of billion dollars, how many of 
these properties, what percent of these properties have we 
mitigated, remediated, fixed?
    Mr. Kirkland. One of the major concerns and obviously our 
audit identified ones that were identified and mitigated. 
However, I think the most fundamental problem is we can't even 
answer that question. As HUD, we do not have enough data and 
have not collected enough data to be able to fundamentally 
answer the questions of which ones have. And without the 
consistent approach, without the fundamental aspect of sharing 
of data, I don't know that even HUD can answer that question.
    Chairman Duffy. So, we know the percent of the funds that 
go into mitigation versus the percent of the funds that go into 
administration?
    Mr. Kirkland. I do not know that.
    Chairman Duffy. I am sensitive to the point of saying, hey, 
and Mr. Cleaver made this point, we will be dealing with this 
problem with his grandkids, right? We are not fixing the 
problem. But when we can't actually answer fundamental 
questions about how well we are spending our money and the 
answer to the problem is spend more money, that is a really 
hard thing for us to process.
    So, shouldn't we develop a plan that says maybe over 10 
years or 15 years, we are going to resolve this problem in 
America. What does it look like? What does the legislation and 
the rules have to look like and this is how much money it is 
going to take to fix the problem. Wouldn't that make sense? 
Does anyone disagree with that assessment?
    Does anyone say the answer is the current system and just 
spend more money? And by the way, we can't actually even tell 
us how successful we have been. Can anybody tell us how 
successful we have been with the probably couple of billion of 
dollars we spent? We are probably making some progress, but we 
can't even quantify it.
    And so, I am sensitive to the feedback for more money, but 
I think what we have to do in a bipartisan effort and in 
collaboration and in consultation with experts like yourselves 
is figure out a path forward. Figure out what the plan needs to 
look like, what we need to do with each of these properties and 
how much money it is going to take and how long we are going to 
spend that money. Does that seem like a fair assessment of what 
we should actually be doing to address the problem?
    And, Mr. Patterson, would you agree with that?
    Mr. Patterson. Yes, I would. I think that what you said has 
a lot of merit. I do think that we need to have a strategic 
approach to how we are going to go forward and how we are going 
to get this addressed. But again, I think it takes a lot of 
collaborating and a lot of folks putting in the time and 
rolling up their sleeves and being able to address this not on 
just a 1-year basis but on a sustained basis until we eradicate 
the problem.
    Chairman Duffy. A holistic approach over time. This is what 
the plan looks like. It might take 10 years. It might take 15 
years, but it is not going to be here when Mr. Cleaver's 
grandkids are in Congress and taking a seat, right?
    Mr. Patterson. Yes, sir.
    Chairman Duffy. Ms. Fee?
    Ms. Fee. Chairman Duffy, I just want to say that the 
attention on lead and mold is very important. But I do think we 
have to look beyond this to the total building conditions 
especially for public housing. So, we could just focus on lead, 
but we will have reoccurrence if we don't address these 
underlying building conditions again.
    So, I just want to make a couple of other comments. On 
mold, we have had just last year 42,000 complaints of mold in 
public housing in New York City. That is impacting tens of 
thousands of residents. We also had 320,000 residents who 
experienced a heat or hot water outage between October 2017 and 
February 2018. In addition, we have chronic elevator failures. 
In 70 percent of NYCHA buildings, there was an experience in an 
elevator not working at some point in a time.
    Chairman Duffy. Let me just interject. I have to tell you--
on the mold situation, what burns me is in Hayward with the LCO 
tribe, we had sent them--I am going off the top of my head now, 
several hundreds of thousands of dollars to fix a mold problem 
on the reservation.
    They did a plan. They were going to do I think it was 14 
homes with that money. And lo and behold, they did three--three 
homes which by the way, you could have torn the current homes 
down and build new ones and it would have been less expensive 
than what they were saying they were spending on the mitigation 
of the three homes. And so, spending money well is really 
important whether it is on the building side, on the mold side, 
or on the paint side, and we are all under pressure on dollars. 
But this is an important issue.
    And to get more money, we have to say, ``We are spending 
the money you give us now really, really well. This is how it 
is used, but it is not enough. It is not enough to address the 
problem.'' And until we get that feedback and drill into this, 
it is hard to get I think the Congress to spend more. And what 
I like is there is a willingness of people to work together and 
I think we almost have to have a taskforce on this issue that 
will work together to get a long-term solution to address at 
least this space. We can have another hearing; there are a lot 
of issues that we have in this space. Today, we are dealing on 
paint and mold.
    My time has expired by over a minute. So, hopefully someone 
else can get to you. But now, I am going to yield to Mr. 
Cleaver for 5 minutes.
    Mr. Cleaver. I will take the entire period, Mr. Chairman.
    But, Mr. Kirkland, the IG report is damning. I do not know 
whether everybody here realizes some of the things that are in 
it that are just absolutely--we should not tolerate those in 
the Government. When you look at the fact that you found that 
there is no oversight of the reporting of remediation, how are 
we going to deal with the problem and we are not even getting 
accurate or--and probably in some instances, no reporting at 
all.
    And the worst part for me is that there were no goals 
established which is why I brought the issue earlier, HUD did 
not even establish the goals. Now, I am just following 
Secretary Carson. Obviously, this has been around a while. I 
could care less about who is sitting in office over there. What 
I want is to see the problem resolved.
    And when you read this report, it is a haphazard system we 
are running over here. Nobody is in charge. Nobody is setting--
the question that the Chairman and I have been talking about, 
why don't we say we are going to do this in 10 years or 
whatever. If your report is accurate and I happen to be one of 
these people who believe in Government, so, I believe that your 
report is accurate, there are no goals. They just wake up in 
the morning and go in HUD, however you HUD. But we have a 
problem.
    Have I misread your report?
    Mr. Kirkland. Ranking Member Cleaver, HUD has recently 
implemented a tracking system to track this information. 
Unfortunately, it totally relies on the housing authorities to 
report that information in. So, we did identify a number of 
flaws in the process and also I think there are concerns with 
the consistency of approach.
    Many different offices within HUD have a role where it 
comes to lead and mold and unfortunately, there is no 
consistency of approach as to those issues.
    Mr. Cleaver. But your office, you don't get into it, giving 
directions on how to fix the problem. You, IG, just identify 
the problems.
    Mr. Kirkland. We work to identify the problem and refer it 
to the department to find ways to fix the problem.
    Mr. Cleaver. Well, the good news I think from this hearing 
is that the Chairman and I and I think the same with others on 
this subcommittee are interested in doing just what has not 
been done, I think are interested in trying to put together a 
program and I don't know, we might need to--I think the 
Chairman and I will talk about it. We have been whispering to 
each other since this hearing began.
    I think we are going to try to figure out some way to do 
exactly what has not been done and let us let the voters feel 
good for a change about something that has been successfully 
dealt with that we can actually remediate this problem. And my 
grandchildren, two or three of them have not been born yet. And 
so, I do not even know--we may have to wait for my great 
grandchildren unless we set a goal.
    And the other issue is, is there anyone who can say what 
the difficulty is if you are actually running a public housing 
authority with providing the data?
    Mr. Patterson. Ranking Member Cleaver, I do not know that I 
am in a position to say yea or nay, maybe a legal requirement 
in that nature, but I am not certain.
    Mr. Cleaver. Well, I am just wondering. If we are having 
difficulty getting the data, is it creating some kind of 
expense with the public housing authority? Do we have the 
personnel to do it? If we are not getting that information, 
there is a reason that that is not happening.
    Yes. Ms. Brewen?
    Ms. Brewen. So, we took advantage of a grant opportunity in 
the 1990's to have all of our properties assessed and then we 
created a mitigation plan for all 154, not a large number, but 
it can be done. We do have all of those records, but we did it 
voluntarily. And then, we applied for what was then HUD's 
comprehensive improvement assistance program and did all of the 
abatement.
    Now, as I mentioned, some of that has a lifespan of 20 
years and now, we are looking at another $50,000 on just one 
unit. So, that gives you both sides.
    Mr. Rothfus [presiding]. The gentleman's time is expired. 
And I will recognize myself for 5 minutes of questioning.
    Mr. Kirkland, I want to touch--start with you. Your report 
describes some of the past failures of public housing 
authorities to address lead-based paint contamination. What if 
any responses are you seeing today from public housing 
authorities in response to those findings?
    Mr. Kirkland. The findings that we identified associated 
with the public housing authorities, the ones that they 
reported to us do appear that they are addressing the ones that 
were reported.
    Mr. Rothfus. What changes do you see them making?
    Mr. Kirkland. The concern that we have is we are not sure 
that we are getting the full picture of the universe out there 
because we rely solely on self-certification of this process 
and because the process does not even--is not a proactive 
process. It relies on a child first testing at a higher level 
of lead. The concern is we don't know the universe out there 
and we are not confident at all that we are getting the full 
picture.
    Mr. Rothfus. Can you tell us about some of the responses 
that you are seeing, actual actions that they are taking?
    Mr. Kirkland. We did as part of our audit reach out to 
3,800 housing authorities. I believe we received responses from 
2,600 housing authorities. Of all of those, we only had self-
identified I think 80-somewhat cases of lead in all of those 
housing authorities. We feel that that number does not seem 
appropriate or adequate and that was those that were self-
reported to us.
    Mr. Rothfus. Ms. McKeown, in your testimony you wrote that, 
quote, ``addressing lead poisoning at the State and local level 
requires a multifaceted and sustained approach to protect 
children and families.'' Can you describe how State and local 
agencies interact with Federal agencies?
    Mr. McKeown. Sure. So, local health departments are the 
ones that see children, write orders for remediation or 
abatement. If the house were owned by HUD or by a housing 
authority or run by them, they would be interacting with them 
in that way.
    Communities also apply for HUD grants to be able to 
remediate housing beyond HUD-owned or run housing. CDC also 
plays a role. CDC provides the systems that allow data sharing 
so that when a lead-poisoned child is identified, they are able 
to track that and report that. So, there could be an 
opportunity there to allow greater access to that information 
and better data sharing.
    Mr. Rothfus. Would that be an example of--and can we make 
changes there? Again, I guess I am looking for where can we be 
improving on interaction between State and local Governments 
and the Federal agencies?
    Mr. McKeown. CDC is in the process of developing a new 
database that local health departments will be able to access 
in real-time and get alerts from in real-time rather than 
depending on us to get the information and share it with them. 
So, there could be an opportunity to explore that and see if 
housing authorities could also have access to that.
    When we have tried to share information with housing 
authorities in the past, there have been challenges. When we 
send the information, they are not able to receive it in a way 
that is meaningful for them. And so, there is an opportunity to 
do better matching so that HUD and housing authorities can 
identify that a child in public housing has been identified as 
lead poisoned.
    Mr. Rothfus. What additional roles can the private sector 
be playing in addressing the lead-based paint contamination 
issue?
    Mr. McKeown. Most frequently, the private sector is the one 
doing the actual remediation. So, working with them to make 
sure that they are able to do the best possible job is one way. 
It would be interesting also to explore ways to have job 
training programs so that people from the affected communities 
were also able to participate in being trained and then 
appropriately helping to do remediation or abatement.
    Mr. Rothfus. Mr. Patterson, you briefly mentioned the 
Moving to Work (MTW) program in your testimony. While I 
understand that your housing authority is not currently in the 
program, several other housing authorities in the region are 
MTW participants including Portage Metropolitan Housing 
Authority. Can you describe how MTW housing authorities have 
used the flexibilities afforded by the program to address lead-
based paint and mold contaminations?
    Mr. Patterson. I think that the flexibility that the 
program allows in terms of regulations and things of that 
nature allow certain housing authorities to be able to 
reallocate funds from one area to another area to be able to 
address remediation as well as allow people to have the 
flexibility to structure their organization and be responsive 
in terms of being able to address those concerns.
    Mr. Rothfus. My time is expired and thank you.
    I will now recognize the gentlewoman from Ohio, Mrs. 
Beatty, for 5 minutes.
    Mrs. Beatty. Thank you, Mr. Chairman, and thank you, 
Ranking Member and again to the witnesses.
    As I was sitting here listening to where I think Chairman 
Duffy was going with his statement as it related to finance or 
money or not just putting more money out there because we did 
not have the data, it put me on pause for a moment, because 
while I am for spending money well, where I am for strategies 
and agree with that, here is where I am in listening and 
reading your testimony and with my own experience.
    We just had--and I just read the Inspector General's June 
18, 2018 report, which outlines everything that you would be 
looking for with the public housings to give you. So, if we are 
going to set up a study committee, we already know what you are 
looking for. So, it appears that HUD has not provided enough 
oversight or regulation. So, I am going to split the baby. I 
don't want public housing people all upset with me when you say 
because simple in my mind, you would say, ``Well, let us set up 
these things and have more oversight.'' They will say, ``We do 
not have enough appropriate funding to do that.''
    But then, we hear from people like Ms.--is it Brewen--we 
hear from her that on their own, they have something that 
sounds incredible and is working. What I can tell you, that 
there is no public housing authority that has the buildings 
before 1977 that likes the idea of having lead-based paint and 
they want to be rid of that just like we do.
    So, why wouldn't we create something like an incentive 
program? So, if you come up with your plan as you have done or 
use yours or someone's as a model, then, there would be an 
incentive to put the funds into it, because what we know is it 
is going to cost money. One of the reasons when we had tucked 
away in one of our recent bills, the Bill 2155, the Economic 
Growth Regulatory Relief and Consumer Protection Act, tucked 
away in that bill was one of the reasons I opposed the bill 
because it was a provision that would relax the frequency of 
inspections and environmental review requirements for small 
public housing authorities, meaning, lowering the standards of 
the visual assessment for lead standards.
    So, we know what the standards are. We know that children 
under the age of 72 months are affected by it. So, we know it 
is real. We know it exists. So, if we have that data, I don't 
know why we cannot have a plan to eradicate it and we have to 
pay for it. So, hold on to that thought.
    Then, we have RAD. So, people are on both sides of RAD, I 
have supported it because I believe in the public-private 
partnerships and it has been one of the ways that we have been 
able to deal with the issue. So, I am not opposed to the 
Chairman's more long-term strategy to put together this big 
task force, but I am not for doing that for 18 months and 
studying it. We already have the facts. We already know that it 
exists. We already know what buildings and where they are 
because we know if you look at the newer buildings, if you take 
Westerville or Hilliard, more suburban communities in my 
district, it is a big fat zero.
    If you go to the Columbus Metropolitan Housing or over in 
Cleveland and you look in those inner city neighborhoods, the 
buildings are older. There are more children housed there. Why 
isn't Congress putting moneys in there to save our children? 
All the housing authorities have logos, not picking on 
Cleveland, but I liked yours. So, it is a good and a bad. 
Strengthening our neighborhoods, improving lives--well, you are 
not going to improve lives if we do not put more money into 
those facilities and into capital funds to take care of 
something that you already know exists.
    Not only you, the other directors, we know where it exists. 
We have that. We know how the children are affected. We know 
the units they are affected in. So, I do not get why we 
wouldn't fund the Capital Fund to take care of it, and plus the 
Secretary of housing made that as one of his commitments. So, 
it is not about money. We should be put, not knowing where the 
money should go in my opinion. We should fund it and take care 
of it.
    And I yield back.
    Chairman Duffy [presiding]. The gentlelady yields back.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Budd, for 5 minutes.
    Mr. Budd. Thank you, Chairman Duffy, and thanks to our 
panelists for your time.
    Ms. Fee, I am over here to your right. Thanks. Yes. So, 
what are some steps or actions that PHAs can take to further 
reduce or eliminate mold and lead-based paint in subsidized 
housing without HUD or without Congressional intervention?
    Ms. Fee. So, that is a tough question. Right now, the 
public housing authorities are set up where the operating funds 
and capital are coming from HUD. In New York, we have a 
commitment from both New York City Mayor and New York Governor 
to also contribute capital funds to support public housing, and 
that is really because we are reaching a crisis in terms of the 
living conditions in public housing.
    So, outside of that, we have seen RAD be a successful model 
for bringing private investment in. I know that the New York 
City Housing Authority has also focused on involving 
philanthropy in all sorts of programs. In terms of mold and 
lead, I have not seen any solutions out there that don't 
involve the Federal Government. I think that they have a role 
to play as does the city and State and our community partners.
    Mr. Budd. Thank you. So, continuing on, your testimony 
mentions NYCHA's failure to perform lead inspections as 
described in the complaint from the United States Attorney for 
Southern District of New York and this failure was inexcusable.
    So, a couple of questions related to that, what steps has 
NYCHA taken to proactively correct these failures?
    Ms. Fee. So, I understand I can't speak for the New York 
City Housing Authority, but I understand from on some of their 
reporting that they have conducted visual inspections for lead-
based paint that previously were not being performed, and they 
have paid special attention to the apartments that are housing 
children under the age of 6 years old.
    And right now, in this--we are waiting to see if this 
consent decree will be approved and I expect that once there is 
a Federal monitor in place, there will be a more concrete plan 
for how to move forward on some of these issues.
    Mr. Budd. Are those best practice changes that they are 
making that they are going to continue making those changes 
because of their previous failures?
    Ms. Fee. I think so. I think that they have also 
established a new role for a compliance officer who is going to 
oversee these kind of issues.
    Mr. Budd. Good.
    Ms. Fee. So we are glad that there is this attention being 
put on the issues and that there will be increased oversight.
    Mr. Budd. Did the United States Attorney's office provide 
any recommendations to NYCHA on this? And if so, were there--
what actions has NYCHA taken to implement those changes from 
the U.S. Attorney's office?
    Ms. Fee. So, I cannot speak to that in great detail. I know 
that there were several management deficiencies cited in the 
actual complaint and some requirements for moving forward. But 
again, I think that I would expect that we see a more concrete 
action plan once a monitor is in place and it is my 
understanding in the terms of the consent decree which has to 
be approved by a court that there will be some goal posts for 
substantial completion or substantial compliance with some 
basic standards for healthy and safe living conditions.
    And in addition to the compliance around lead inspections, 
the housing authority currently has a class action lawsuit that 
they have been in related to mold and there is a special mold 
master appointed by a Federal court as well. And we haven't 
seen that problem be corrected. That is since 2014 and I think 
part of the issue is there were not sufficient resources to 
address underlying conditions.
    Mr. Budd. OK. Well, thank you, Mrs. Fee and I have a few 
more moments.
    But, if you would, Mr. Chairman, I will yield back.
    Chairman Duffy. The gentleman yields back.
    Mr. Budd. Thank you.
    Chairman Duffy. The Chair now recognizes the newly created 
position of Vice Ranking Member, the gentleman from Michigan, 
Mr. Kildee, for 5 minutes.
    Mr. Kildee. Thank you, Mr. Chairman, and thanks to the 
panelists and I apologize if anything that I raise has already 
been addressed. I was in another meeting.
    So, some of you may know I come from Flint, Michigan. It is 
my hometown. It is where I was born and raised. And it is a 
community that 4 years ago discovered unfortunately that the 
drinking water was significantly contaminated with lead and I 
won't go into all the reasons behind it. But I wonder if any of 
you might comment on the risks certainly in public housing and 
supported housing sector, all the work we do around lead, 15 
parts per billion is the Federal action level. But I have yet 
to find a serious scientist or health professional that can 
tell me that any level of lead is safe.
    And in Flint, when at the peak of the crisis, we were 
seeing lead in water testing at 13,000 parts per billion in 
some places. It just strikes me that this is an area where we 
have to pay much more attention and create much greater focus.
    And I will finish this by reiterating in a different way 
the point that my colleague, Mrs. Beatty, was making. The costs 
of not doing this right are being played out right now in my 
own hometown. For the price of a few hundred dollars a day or 
even for maybe $20 million or $30 million over a decade 
eliminating lead service lines that lead to not only houses but 
commercial facilities, to public housing, eliminating those 
lead service lines would have cost millions for sure.
    But right now, we are at about $500 million having been 
committed to remediating the problem that was a result of the 
failure to act in the first place. I wonder if any of you have 
thoughts on lead in drinking water and the impact that it has 
in public housing or in housing generally, which 
disproportionately unfortunately falls on low-income 
individuals. I have legislation that would actually bring that 
standard down to 5 parts per billion.
    But I wonder if any of you might comment on experiences you 
have had or concerns that you might have around lead in 
drinking water and how that exacerbates this problem.
    Ms. Benfer. I believe that HUD should require public 
housing authorities and property owners to determine the 
presence of lead service lines and to require a timeframe for 
full replacement. Based on the experience in Flint and across 
the country, we know that this is incredibly harmful. It 
violates the warranty of habitability, the public health, the 
nuisance code, it could in federally assisted housing, the 
Americans with Disabilities Act, Fair Housing Act, and so on 
and this can't be considered safe, decent, and appropriate 
housing for our residents.
    In the Consolidated Appropriations Act of 2017, Congress 
dedicated significant funding for lead contaminated water and 
the General Accountability Office to assess lead service lines 
across the United States and found that the country is coated 
with lead service lines, and in some cities, it was required 
until the 1980's. So, this is part of the crisis and it should 
certainly be part of the remediation that goes on in federally 
assisted housing to prevent lead poisoning among residents.
    Ms. Fee. Mr. Kildee, I certainly see the parallels with 
your hometown of Flint, Michigan and what could be a pending 
health crisis in public and assisted housing if we are not 
strategically investing to keep these buildings in good repair.
    Mr. Kildee. Yes, sir.
    Mr. Kirkland. I do agree that the Federal Government's HUD 
has and should have taken a more proactive role when it comes 
to lead in water and I certainly think that there is some 
significant work to be done in that arena.
    Mr. Kildee. Thank you. I guess the only point I would make 
in closing is that it has become fairly evident to me that the 
current standard for lead in drinking water is a standard based 
on convenience, not on health. Fifteen parts per billion keeps 
the lion's share of public water systems serving everyone in 
compliance, whereas if we had a health-based standard which 
would be far lower, we would tip a lot of public water systems 
upside-down and put them in a status of noncompliance and that 
is an inconvenient place to be. I think we ought to have a 
health-based standard.
    And I appreciate this is not the central focus of this 
meeting, but it is really important I think to point out that 
there are dangerous levels of lead in drinking water which 
exacerbate the problem of lead exposure that comes in other 
forms.
    I appreciate the panel's testimony and I yield back.
    Chairman Duffy. The gentleman yields back.
    I want to thank our witnesses for their testimony and 
insight today. We appreciate your help and would look forward 
to working with you as we try to work in a bipartisan effort to 
resolve this issue.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, this hearing is not adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]




                            A P P E N D I X



                             June 26, 2018



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
